No. 19-1177
AMERICAN INSTITUTE FOR INTERNATIONAL STEEL, et al,
Petitioners,
v.
UNITED STATES, et al,
Respondents.

CERTIFICATE OF SERVICE

I, Alan B. Morrison, counsel of record for petitioners, do hereby certify that on
April 10, 2020, I served petitioners’ Blanket Consent to the filing of amicus curiae
briefs by emailing it to counsel for the respondents, the Solicitor General of the
United States, at supremectbriefs@usdoj.gov.
/s/Alan B. Morrison
Alan B. Morrison

